March 16, 2010

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

DOUGLAS A. TULINO
VICE PRESIDENT, LABOR RELATIONS

SUBJECT: Rural Delivery Christmas Operations (Report Number DR-AR-10-003)

This report presents the results of our review of Rural Delivery Christmas Operations
(Project Number 10XG002DR000). Our objective was to evaluate rural delivery
supplemental1 Christmas overtime utilization. This audit addresses operational risk and
was self-initiated by the U.S. Postal Service Office of Inspector General (OIG). See
Appendix A for additional information about this audit.

Conclusion

Although the U.S. Postal Service significantly reduced supplemental Christmas overtime
hour utilization from fiscal years (FY) 2008 through 2009, these overtime hours were no
longer necessary to ensure timely delivery of mail. The following factors contributed to
the need to eliminate the Christmas overtime hours:

            Except for parcels, Christmas mail volume over the last 5 years has not been
             greater than mail volume during non-Christmas season months.

            Mail volume has declined on average about 3 percent per month since the
             Postal Service implemented the results of the 2009 National Rural Mail
             Count. Most rural carriers used less time to deliver mail on their routes than
             the evaluated time established at the National Rural Mail Count ending in
             March 2009. See Appendix B for our detailed analysis on these topics.




1
  The supplemental Christmas overtime pay provision in the National Rural Letter Carriers’ Association (NRLCA)
agreement provides for regular rural carriers to receive supplemental overtime pay when they exceed the route’s
established time during the Christmas mailing season. Per the current NRLCA agreement, Christmas overtime pay is
in effect December 5 through 25, 2009. Also in the agreement, rural letter carriers also entitled to Fair Labor
Standards Act (FLSA) overtime carriers receive FLSA overtime any time they work in excess of 12 hours in a day or
in excess of 56 hours in a week.
Rural Delivery Christmas Operations                                                        DR-AR-10-003



Eliminating the NRLCA agreement’s supplemental Christmas overtime pay provision will
eliminate 70,465 rural delivery overtime hours and save the Postal Service almost $3
million in FYs 2011 and 2012.2 See Appendix C for our detailed analysis of the
monetary impact.

We recommend the vice president, Delivery and Post Office Operations; coordinate with
the vice president, Labor Relations, to:

1. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxx

We recommend the vice president, Delivery and Post Office Operations:

2. Reduce Christmas overtime hours to match mail volume as necessary xxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

Management’s Comments

Management stated that collective bargaining with the NRLCA is complicated by the
evaluated compensation system xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxx Management also agreed with recommendation 2 and stated they could
reduce overtime hours during the Christmas mailing season and will make adjustments
as necessary to the Christmas overtime plan to maximize future reductions in overtime
use. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

Management agreed in principal with recommendation 1 as it plans to review all
contract provisions. We agree that it is not realistic to conclude that simply identifying a
potential costly provision and xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx will eliminate it.
However, the fact that the mail volume is so low and the overtime provision no longer
needed should be a consideration xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
2
 The NRLCA agreement expires in November 2010, xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxx The NRLCA agreement also states that if either party desires to terminate or modify the NRLCA
agreement for successive annual periods, the party demanding such termination or modification must serve written
notice of such intent to the other party, not less than 90 or more than 120 days before the expiration date of the
agreement.


                                                        2
Rural Delivery Christmas Operations                                     DR-AR-10-003



Regarding recommendation 2, the OIG considers management’s comments responsive
to the recommendation. Management’s corrective actions should resolve the issues
identified in the report.

The OIG considers recommendation 1 significant; therefore, it requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that it
can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Elizabeth A. Schaefer
    James J. Boldt
    William D. Daigneault
    Sally K. Haring




                                             3
Rural Delivery Christmas Operations                                                           DR-AR-10-003



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Rural letter carriers perform a vital function in the Postal Service, serving thousands of
families and businesses in rural and suburban areas. Rural mail delivery accounts for
approximately 28 percent of the Postal Service’s total deliveries.

Each year the Postal Service implements procedures to manage Christmas overtime
usage for increased mail volume.3 The Postal Service implemented the supplemental
Christmas Overtime Pay Provision in 1975. Current Christmas allowances and
procedure provisions are outlined in Article 9.2(K) of the 2006-2010 agreement between
the Postal Service and the NRLCA. The provision was established to ensure timely
delivery of the extraordinary volume of mail received during the Christmas mailing
season.

The Postal Service completed the National Rural Mail Count in March 2009. This count
established the workhours for each rural route and remains in effect until another count
is completed.4 Rural letter carriers are compensated based on workload evaluations
established during the National Mail Count. In addition, the labor agreement states that
regular rural carriers are entitled to two types of overtime compensation during the
Christmas period, FLSA and supplemental Christmas overtime. Carriers receive FLSA
overtime at all times during the year, including Christmas, when they work in excess of
12 hours in a day or in excess of 56 hours in a week. Rural carriers receive
supplemental Christmas overtime pay when they exceed the route’s established hours5
during the designated 2 weeks in December6 of each year or the regular carrier
provides assistance on their relief day. Rural Carriers record their workhours during
Christmas using Postal Service (PS) 1314, Regular Rural Carrier Time Certificate, to
record FLSA hours; and PS 1314-A Auxiliary Rural Carrier Time Certificate, for
assistance provided on routes during the Christmas period.7




3
  Mail volume has declined an average of 15 percent with Christmas mail volume declining by 16 percent. The Postal
Service reduced rural carrier Christmas overtime hours by 13 percent in FY 2008 and approximately 33 percent in
FY 2009.
4
  In FY 2010, the mail count begins February 27, 2010, and ends March 12, 2010. During the mail count, officials
identify the number and type of pieces of mail delivered, collected, or handled on rural routes.
5
  Rural Routes are classified as follows: H Routes - carrier works 6 days a week; J Routes - carrier has a relief day
every other week; K Routes - carrier has a relief day every week; Auxiliary Routes - carriers works 6 days a week,
normally evaluated at less than 39 hours per week; Mileage Routes - carrier salary is based on the length of the route
as determined by the official measurement; and High Density L Routes – carrier has a density of 12 boxes or more
per mile, as verified by a mail count.
6
  Christmas supplemental overtime pay was in effect December 5 through 25, 2009
7
  During the 2 weeks in December, headquarters provides two tools to the areas/districts to track overtime during this
period. The Overtime and Auxiliary Assistance Decision Tree to assist rural managers in their decision to use
overtime or not. Another tool is the PS Form 3921-RDX, Volume Recording Worksheet, which is used to record
volume.


                                                          4
Rural Delivery Christmas Operations                                       DR-AR-10-003



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate rural delivery supplemental Christmas overtime use. To
accomplish this objective, we reviewed documentation and applicable policies and
procedures pertaining to rural delivery Christmas overtime operations from October
2005 through November 2009. We analyzed national and area Christmas rural delivery
operations documentation for 46 routes in 41 Postal Service rural delivery units.
Specifically, we analyzed volume and overtime hour data from eFlash, Web Enterprise
Information System and Enterprise Data Warehouse. We conducted interviews with
appropriate officials in rural delivery operations at headquarters, area, district, and unit
levels.

We relied on Postal Service data systems. We did not test controls over these systems;
however, we checked the reasonableness of results by confirming our analysis and
results with management and multiple data sources.

We conducted this performance audit from October 2009 through March 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on January 27, 2010, and
included their comments where appropriate.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to our objective of this audit.




                                              5
Rural Delivery Christmas Operations                                    DR-AR-10-003



                             APPENDIX B: DETAILED ANALYSIS

Rural Delivery Christmas Operations

The Postal Service has significantly reduced supplemental Christmas overtime hour
utilization from 132,072 hours in Calendar Year (CY) 2007 to 49,037 overtime hours
planned for 2009. This is a 63 percent reduction from 2007 and 25,496 hours less than
they used during the previous Christmas season in CY 2008. (See Chart 1.)

                                              Chart 1
                             Rural Delivery Christmas Overtime Hours




     Source: eFlash

Our analyses revealed that the Christmas overtime hours are no longer necessary to
ensure timely delivery of mail for the following reasons:

   Christmas mail volume no longer supports the need for overtime and the associated
    NRLCA agreement supplemental Christmas overtime pay provision. Specifically, for
    five consecutive years, the December total delivered mail volume has been less than
    total delivered mail volume in the months of October, which had the highest mail
    volume for each of the years. In fact, during October 2004, total delivered mail
    volume was 5.4 percent higher than in December 2004. Four years later, the
    percentage difference had risen to approximately 10.5 percent. (See Chart 2.)




                                             6
Rural Delivery Christmas Operations                                                     DR-AR-10-003



                                             Chart 2
                            December Total Delivered Mail Volume Versus
                         October Total Delivered Mail Volume by Calendar Year




        Source: eFlash

         Further, Chart 2 shows total delivered mail volume during the month of October,
         over the last four calendar years consistently exceeded total delivery mail volume
         during the month of December. However, overtime hours for the October months
         were consistently less than overtime hours for the December months. For
         example, even though volume was 10.49 percent less in December 2008, the
         Postal Service used over 74,000 overtime hours in that month than in October
         2008.8

        Our analysis of mail volume over the 7 months since the Postal Service
         implemented the results of the 2009 National Rural Mail Count showed a further
         decrease in mail volume on average per month of 2.99 percent. (See Table 1.)




8
 The Postal Service used 1,788 FLSA overtime hours in October, but used 1,460 FLSA overtime hours plus an
additional 75,534 Christmas overtime hours in December even though volume was more than 10 percent lower.


                                                      7
Rural Delivery Christmas Operations                                                       DR-AR-10-003



                                             Table 1:
                       Changes in Mail Volume Since 2009 National Mail Count
                                        Actual Delivered           Percent Change In Mail Volume From
                   Month                    Volume                   the Average Mail Count Volume
          Mail Count 2009 Average9         8,131,238,300        
                 April 2009                 8,303,534,467                         2.12
                 May 2009                   7,777,264,126                        -4.35
                 June 2009                  7,524,791,459                        -7.46
                 July 2009                  7,508,636,770                        -7.66
                August 2009                 7,693,405,209                        -5.38
              September 2009                7,930,857,867                        -2.46
               October 2009                 8,805,159,147                         8.29
               November 2009                7,563,218,440                        -6.99
          Total Percentage Change
                                                                                 -2.99
                 Per Month                         
      Source: eFlash

            Since mail volume has continued to decline, most rural carriers use less time to
            deliver mail on their routes than the time established at the completion of the
            National Rural Mail Count in March 2009. Specifically, as of December, 2009
            rural carriers routes were averaging approximately 1 hour less per day to deliver
            their routes than established at the mail count.

           Finally, our analysis of mail classes showed parcel mail volume as the only class
            of mail that incurred a noticeable increased during the Christmas mailing season.
            (See Chart 3.) Based on the above facts, we concluded carriers could absorb
            any increase in parcel volume with their regular hours during the Christmas
            mailing season.




9
    Approximate mail volume based on the average of the February and March 2009 mail count volume.


                                                         8
Rural Delivery Christmas Operations                                  DR-AR-10-003



                                         Chart 3
                         Parcel Volume for Christmas (December)
                         Compared to Total Delivered Mail Volume




Source: eFlash

Considering these conditions, the Postal Service no longer needs the Christmas
overtime hours and the associated pay provision in the NRLCA agreement. Elimination
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx can save an estimated 70,465
overtime hours, reducing rural delivery operating cost by $2,955,524. (See Appendix C.)




                                            9
Rural Delivery Christmas Operations                                                            DR-AR-10-003



                                  APPENDIX C: MONETARY IMPACT

We estimated10 a monetary impact of $2,955,524. Based on the overtime hours used,
planned, and projected, we calculated the savings as shown in Table 2:

                          Table 2: Savings from Elimination of
                    Supplemental Christmas Overtime Pay xxxxxxxxx
                             Estimated
                           Overtime Hours      Overtime
                                                                Annual
                Fiscal       to be Used        Rate for
                                                               Estimated
                Year11       During the      Regular Rural
                                                               Savings12
                             Christmas          Carrier
                               Season
                 2011               38,735          $41.70     $1,615,24913
                 2012                           31,730                  $42.24             1,340,27514
                 Total                          70,465                                   $2,955,52415
          Source: OIG Analysis




10
   We based the methodology for cost savings on exponential regression analysis of Christmas overtime used,
planned, and projected from CYs 2007 through 2012.
11
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
12
   Funds Put to Better Use – Funds that can be used more efficiently by implementing recommended actions.
13
   We multiplied the 2010 rural carrier overtime rate of $41.70 by the 38,735 overtime hours to calculate a savings of
$1,615,249.
14
   We multiplied the 2011 rural carrier overtime rate of $42.24 by the 31,730 overtime hours to calculate the savings
of $1,340,275.
15
   We calculated the FYs 2011 and 2012 savings by adding each fiscal year’s savings for a total of $2,955,524.70
over 2 years.


                                                          10
Rural Delivery Christmas Operations                        DR-AR-10-003



                            APPENDIX D. MANAGEMENT’S COMMENTS




                                         11
Rural Delivery Christmas Operations        DR-AR-10-003




                                      12
